No. 19-

3fntfje
Supreme Court of tfje ®ntteb i§>tate£
>y'

TIMOTHY DASLER,
Petitioner,
v.

JENNIFER DASLER,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Vermont
PETITION FOR WRIT OF CERTIORARI

Timothy Dasler
Petitioner Pro Se
488 NH Route 10 Apt D
ORFORD, NH 03777
(802)369-9993

October 7,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
OCT 1 0 2019

1

QUESTIONS PRESENTED
Ms. Dasler was awarded temporary custody in an exparte order (5/23/17 App.91a) based upon her self-serving
accusation of assault. Meeting only ‘probable cause’, her
accusations were adjudicated in a restrain-ing order
(8/1/17) and divorce hearings (concluding 7/2/18) prior
to the criminal trial forcing Mr. Dasler to choose
between 5th amendment protection and 14th amend­
ment due process. Ms. Dasler used parental
contact to stalk and abuse Mr. Dasler. She admitted
to more than 70 instances of domestic violence (2/16/18
transcript Pg. 75 and 29-38, 12/12/17 motion Pg. 4-5, 8,
12, 2/28/18 Pg. 5, 17, 22-23, 30) as defined under 15
V.SA § 665(9). By obstructing the “normalization of
contact” for 9 months after separation, Ms. Dasler
was awarded “primary caregiver” status for a period in
which Mr. Dasler was denied equal parenting time
without an opportunity to defend his parental rights,
and a period in which she frequently denied Mr. Dasler
court ordered visitation(App.98a-99a).
The court ignored Ms. Dasler’s violations by
misrepresenting the record in the 8/17/18 Order % 101
(App.29a). It stated that she made “reasonable makeup
time” citing Tr. Ex. 8 (App.98a), which refutes the
courts own finding, and erroneously claims it was
“voluntary” for Ms. Dasler to “normalize contact” as
called for in the parent child contact stipulation
(App.94a), which was the framework for subsequent
court orders through 2/23/18 when the court enforced
the ‘normalization’.
Is it a violation of 14th Amendment right of equal
protection when a single self serving accusation by

11

Ms. Dasler is used as the basis to permanently award
her sole parental rights while Mr. Dasler claims his
5th amendment right to remain silent pending his trial,
yet the court ignores Ms. Dasler’s sworn statements
admitting to more than 70 incidents of domestic
violence, both of which fall under the same statutory
factor 15 V.S.A. § 665(9) in ‘best interest of the child’,
and neither parent is found to be unfit?
Does a significant divergence of a summary order
and the record lead to reversal and a new hearing,
particularly when a 14th Amendment protected right
is permanently restricted without meeting a state
requirement of either ‘preponderance of evidence’ or
‘clear and credible evidence’ standards in the proceed­
ings?
Does the citation of mutually exclusive standards
(Cabot App.2a and MacCormack App.3a) indicate
unequal opportunity to appeal when fact finding of
the lower court may or may not need to be reasonable
in light of the evidence depending on which of these
standards the VT Supreme Court chooses to apply in
that case?
Does it lead to reversal when the court applies
different standards to each party, applying Ms. Dasler’s
net income against Mr. Dasler’s gross income (App.
74a, App.47a U 180, and App.49 Tf 190), applying Ms.
Dasler’s debt against assets, but not Mr. Dasler’s
debt against his assets, and wholly ignoring the stat­
utory factors of ‘equity’ 15 V.S.A. § 751(b) when award­
ing assets?

Ill

LIST OF PROCEEDINGS
Vermont Supreme Court
2018-301
Dasler v. Dasler
7/8/19
Vermont Supreme Court
2018-301
Dasler v. Dasler
6/3/19
Orange County Family Court
74-6-17 Oedm
Dasler v. Dasler
8/17/18
Orange County Family Court
74-6-17 Oedm
Dasler v. Dasler
2/23/18
Orange County Family Court
37-5-17 Oefa
Dasler v. Dasler
8/1/17
Orange County Family Court
37-5-17 Oefa
Dasler v. Dasler
5/23/17

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.......................,...........
LIST OF PROCEEDINGS......................................

i

in

TABLE OF AUTHORITIES................................... vi
PETITION FOR WRIT OF CERTIORARI............. 1
OPINIONS BELOW............................................... 1
JURISDICTION...................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED............................... 2
STATEMENT OF THE CASE................................ 12
A. Property Distribution................................... 26
B. VT Supreme Court Appeal............................ 28
REASONS FOR GRANTING THE WRIT.............. 29
I. State Statutes Regarding Child Custody
Fail to Provide 14th Amendment Protec­
tion ............................................................... 29
II. The Conflict Between 5th Amendment
Rights and 14th Amendment Rights
Appear Not to Have Been Resolved
Within the Federal Court........................... 31
III. The Judicial Fact Discretion Study
Illustrates ‘Actual Bias’, How, and Why
It Manifests in Cases Like This................. 32
CONCLUSION........................................................ 35

V

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Opinion of the Supreme Court of Vermont
(June 3, 2019)....................................................... la
Findings and Order of the Superior Court
of Vermont (August 17, 2018)........................... 15a
Partial Proposed Order: Agreement on Parental
Rights and Responsibilities, Parent Child
Contact and Provisions Relating to Children
(August 17, 2018) ................................................ 77a
Memorandum in Support of 8:00 a.m. Exchange
Time (July 23, 2018)........................................... 87a
Temporary Order on Parental Rights and
Parent-Child Contact (August 1, 2017)........... 89a
Extended Temporary Order: Relief from Abuse
(May 23, 2017).................................................... 91a
Order of the Supreme Court Denying Motion for
Reargument (July 8, 2019).............
96a
Plaintiff Trail Exhibit
(June 6, 2018)..................................

98a

Stipulation Re: Parent Child Contact
(June 9, 2017)

100a

VI

TABLE OF AUTHORITIES
Page
CASES
Cabot v. Cabot,
166 Vt. 485 (1997)............

1, 28

Knutsen v. Cegalis,
2011 VT 128, 191 Vt. 546,
35 A.3d 1059 (2011)..........

30, 31

Troxel v. Granville,
530 U.S. 57 (2000)............

29

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V

passim

U.S. Const, amend. XIV, § 1

passim

STATUTES
12 V.S.A. § 5131..

10

13 V.S.A. § 2451..

7

13 V.S.A. § 2601..

11

13 V.S.A. § 2602..

11

13 V.S.A. § 2822..

11

13 V.S.A. § 2823..

11

13 V.S.A. § 3252..

11

13 V.S.A. § 3253..

11

15 V.S.A. § 665....

passim

15 V.S.A. § 668a..

....3, 18

15 V.S.A. § 751(b)

ii, 7, 26

Vll

TABLE OF AUTHORITIES—Continued
Page
15 V.S.A. § 1101....

6, 9, 24

28 U.S.C. § 1257(a)

2

1

PETITION FOR WRIT OF CERTIORARI
Petitioner Timothy Dasler respectfully requests
review to resolve open issues where common state
practices are at odds with 5th and 14th amendment
rights to due process. While the U.S Supreme Court
has clearly stated that the 14th amendment protects
parental rights the lack of federal review because of
the so-called “domestic relations exception” prevents
federal oversight from reigning in the overly broad
statutes that are interpreted largely as unbridled
judicial discretion. Petitioner requests remand for a
new hearing with clarified guidelines for state practices
to protect 5th amendment and 14th amendment rights.

OPINIONS BELOW
Vermont Supreme Court opinion is reported in
appendix. In summary, the VT Supreme Court cites
mutually exclusive case law of Cabot (App.2a.) and
MacCormack (App.3a).
In considering the court’s factual findings, we
“view[] the evidence in the light most favorable to
the prevailing party and excludte] the effect of
modifying evidence.” Cabot v. Cabot, 166 Vt. 485, 497
(1997) (quotation omitted).
When applying Cabot, as the court seems to have
done, the fact finding need not be reasonable in light
of the evidence, while the MacCormack citation would
overturn fact finding that is not reasonable in light of

2

the evidence. The VT Supreme Court simply did not
acknowledge the clear factual errors as a result of
the selective application of standards.
The VT Supreme Court seems to take the opinion
that the fact finding may or may not need to be rea­
sonable based upon the arbitrary and capricious
application of standards that effectively nullify review
of fact finding whenever the court chooses.

JURISDICTION
The Supreme Court of Vermont denied a timely
filed motion for reargument on July 8, 2019. This
court has jurisdiction pursuant to 28 U.S.C. § 1257(a).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const, amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

3
U.S. Const, amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except
in cases arising in the land or naval forces, or in
the militia, when in actual service in time of war
or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of
life or hmb; nor shall be compelled in any criminal
case to be a witness against himself, nor be
deprived of life, liberty, or property, without due
process of law; nor shall private property be taken
for public use, without just compensation.
15 V.S.A. § 668a
(c) If a custodial parent refuses to honor a
noncustodial parent’s visitation rights, the court
shall enforce such rights unless it finds good cause
for the failure or that a modification of the
visitation rights is in the best interests of the
child. Unless restoration of the visitation is not
in the best interests of the child, enforcement of
the visitation rights shall include the restoration
of the amount of visitation improperly denied.
When a party files a motion for enforcement of
parent-child contact under this subsection, the
court shall conduct a hearing within 30 days of
service of the motion.
(d)A person who violates this section may be
punished by contempt of court or other remedies as
the court deems appropriate, including awarding
attorney’s fees and costs to the prevailing party.

4
(e)

(1) If a custodial parent refuses to honor a
noncustodial parent’s visitation rights without
good cause, the court may modify the
parent-child contact order if found to be in
the best interests of the child. Good cause
shall include:
(A) a pattern or incidence of domestic or
sexual violence;
(B) a reasonable fear for the child’s or the
custodial parent’s safety; or
(C) a history of failure to honor the
visitation schedule agreed to in the
parent-child contact order.
(2) A custodial parent, upon a showing of good
cause as defined in subdivision (l)(A) or (B) of
this subsection, may receive an ex parte order
suspending
a
noncustodial
parent’s
visitation rights until a court hearing is held.
A hearing shall be held within 14 days from
the issuance of the order.
(£) All parent-child contact orders issued by the
family division of the superior court in connection
with a divorce or parentage proceeding shall bear
the following statement: “A PERSON WHO FAILS
TO COMPLY WITH ALL TERMS OF THE CUR­
RENT ORDER GOVERNING PARENT-CHILD
CONTACT MAY BE SUBJECT TO CONTEMPT
OF COURT CHARGES. THE COURT MAY
IMPOSE ADDITIONAL REMEDIES, INCLUD­
ING A MODIFICATION OF THE CURRENT
PARENT-CHILD CONTACT ORDER IF FOUND

5
TO BE IN THE BEST INTERESTS OF THE
CHILD.”
15 V.S.A. § 665
Rights and Responsibilities Order;
Best Interests of the Child
(a) In an action under this chapter, the court
shall make an order concerning parental rights and
responsibilities of any minor child of the parties.
The court may order parental rights and responsi­
bilities to be divided or shared between the
parents on such terms and conditions as serve the
best interests of the child. When the parents cannot
agree to divide or share parental rights and
responsibilities, the court shall award parental
rights and responsibilities primarily or solely to
one parent.
(b) In making an order under this section, the
court shall be guided by the best interests of the
child and shall consider at least the following
factors:
(1) the relationship of the child with each parent
and the ability and disposition of each parent
to provide the child with love, affection, and
guidance;
(2) the ability and disposition of each parent to
assure that the child receives adequate food,
clothing, medical care, other material needs,
and a safe environment;
(3) the ability and disposition of each parent to
meet the child’s present and future develop­
mental needs;

6

(4) the quality of the child’s adjustment to the
child’s present housing, school, and comm­
unity and the potential effect of any change;
(5) the ability and disposition of each parent to
foster a positive relationship and frequent
and continuing contact with the other parent,
including physical contact, except where
contact will result in harm to the child or to a
parent;
(6) the quality of the child’s relationship with
the primary care provider, if appropriate
given the child’s age and development;
(7) the relationship of the child with any other
person who may significantly affect the child;
(8) the ability and disposition of the parents to
communicate, cooperate with each other, and
make joint decisions concerning the children
where parental rights and responsibilities are
to be shared or divided; and
(9) evidence of abuse, as defined in section 1101
of this title, and the impact of the abuse on
the child and on the relationship between
the child and the abusing parent.
(c) The court shall not apply a preference for
one parent over the other because of the sex of the
child, the sex of a parent, or the financial resources
of a parent.
(d) The court may order a parent who is awarded
responsibility for a certain matter involving a
child’s welfare to inform the other parent when a
major change in that matter occurs.

7
(e) The jurisdiction granted by this section
shall be limited by the Uniform Child Custody
Jurisdiction and Enforcement Act, if another state
has jurisdiction as provided in that act. For the
purposes of interpreting that act and any other
provision of law which refers to a custodial parent,
including 13 V.S.A. § 2451, the parent with
physical responsibility shall be considered the
custodial parent.
15 V.S.A. § 751(b)—Property Settlement
(a) Upon motion of either party to a proceeding
under this chapter, the court shall settle the rights
of the parties to their property by including in its
judgment provisions which equitably divide and
assign the property. All property owned by either
or both of the parties, however and whenever
acquired, shall be subject to the jurisdiction of
the court. Title to the property, whether in the
names of either or, both parties, or a nominee, shall
be immaterial, except where equitable distribution
can be made without disturbing separate property.
(b) In making a property settlement the court may
consider all relevant factors, including:
(1) The length of the civil marriage.
(2) The age and health of the parties.
(3) The occupation, source, and amount of income
of each of the parties.
(4) Vocational skills and employability.

8
(5) The contribution by one spouse to the educa­
tion, training, or increased earning power of
the other.
(6) The value of all property interests, liabilities,
and needs of each party.
(7) Whether the property settlement is in lieu
of or in addition to maintenance.
(8) The opportunity of each for future acquisi­
tion of capital assets and income. For purposes
of this subdivision:
(A) The court may consider the parties’
lifestyle and decisions made during the
marriage and any other competent evi­
dence as related to their expectations of
gifts or an inheritance. The court shall
not speculate as to the value of an inheri­
tance or make a finding as to its value
unless there is competent evidence of
such value.
(B) A party’s interest in an inheritance
that has not yet vested and is capable
of modification or divestment shall not
be included in the marital estate.
(C) Notwithstanding any other provision of
this subdivision (8), a person who is not
a party to the divorce shall not be subject
to any subpoena to provide documen­
tation or to give testimony about:
(i)

his or her assets, income, or net
worth, unless it relates to a party’s
interest in an instrument that is

9
vested and not capable of modification
or divestment; or
(ii) his or her revocable estate planning
instruments, including interests that
pass at death by operation of law or
by contract, unless a party’s interest
in an instrument is vested and not
capable of modification or divestment.
(D) This subdivision (8) shall not be const­
rued to limit the testimony given by the
parties themselves or what can be
obtained through discovery of the parties.
(9) The desirability of awarding the family
home or the right to five there for reasonable
periods to the spouse having custody of the
children.
(10) The party through whom the property was
acquired.
(11) The contribution of each spouse in the acquisi­
tion, preservation, and depreciation or appre­
ciation in value of the respective estates,
including the nonmonetary contribution of a
spouse as a homemaker.
(12) The respective merits of the parties.
15V.S.A. § 1101
The following words as used in this chapter shall
have the following meanings:
(l) “Abuse” means the occurrence of one or more
of the following acts between family or household
members:

10
(A) Attempting to cause or causing physical harm.
(B) Placing another in fear of imminent serious
physical harm.
(C) Abuse to children as defined in 33 V.S.A.
chapter 49, subchapter 2.
(D) Stalking as defined in 12 V.S.A. § 5131(6).
(E) Sexual assault as defined in 12 V.S.A.
§ 5131(5).
12 V.S.A. § 5131
As used in this chapter:
(1)
(A) “Course of conduct” means two or more acts
over a period of time, however short, in
which a person follows, monitors, surveils,
threatens, or makes threats about another
person, or interferes with another person’s
property. This definition shall apply to acts
conducted by the person directly or indirectly,
and by any action, method, device, or
means. Constitutionally protected activity is
not included within the meaning of “course of
conduct.”
(B) As used in subdivision (A) of this subdivision
(l), threaten shall not be construed to re­
quire an express or overt threat.
(2) Repealed.]
(3) “Nonphysical contact” includes telephone
calls, mail, e-mail, social media commentary or

11
comment, or other electronic communication, fax,
and written notes.
(4) “Reasonable person” means a reasonable
person in the victim’s circumstances.
(5) “Sexually assaulted the plaintiff’ means that
the defendant engaged in conduct that meets
elements of lewd and lascivious conduct as defined
in 13 V.S.A. § 2601, lewd and lascivious conduct
with a child as defined in 13 V.S.A. § 2602, sexual
assault as defined in 13 V.S.A. § 3252, aggra­
vated sexual assault as defined in 13 V.S.A.
§ 3253, use of a child in a sexual performance as
defined in 13 V.S.A. § 2822, or consenting to a
sexual performance as defined in 13 V.S.A.
§ 2823, and that the plaintiff was the victim of
the offense.
(6) “Stalk” means to engage purposefully in a
course of conduct directed at a specific person that
the person engaging in the conduct knows or
should know would cause a reasonable person to:
(A) fear for his or her safety or the safety of a
family member; or
(B) suffer substantial emotional distress as evi­
denced by:
(i)

a fear of unlawful sexual conduct, unlaw­
ful restraint, bodily injury, or death; or

(ii) significant modifications in the person’s
actions or routines, including moving
from an established residence, changes
to established daily routes to and from
work that cause a serious disruption in

12
the person’s life, changes to the person’s
employment or work schedule, or the loss
of a job or time from work.
(7) “Stay away” means to refrain from know­
ingly:
(A) initiating or maintaining a physical presence
near the plaintiff;
(B) engaging in nonphysical contact with the
plaintiff directly or indirectly; or
(C) engaging in nonphysical contact with the
plaintiff through third parties who may or
may not know of the order.

STATEMENT OF THE CASE
Mr. and Ms. Dasler were married in 2012 after
dating for 8 years. They bought a home in 2013 and
had a child in 2015. Both parties were involved in
their daughter’s daily care. There were no allegations
of abuse until Mr. Dasler told Ms. Dasler he was leaving
on 5/12/17. On 5/11/17 Mr. Dasler slept on the couch
to avoid Ms. Dasler’s aggression following several
days of escalating aggression from her, and in the
morning told her he was leaving (6/12/18 transcript
Pg. 82-83 and 8/1/17 transcript found within 2/28/18
Motion to Correct and Re-consider Pg. 60-62). Ms.
Dasler agreed to let him take their child for the first
overnight. When they argued Ms. Dasler claims Mr.
Dasler lifted/pushed a table at her, which Mr. Dasler
denies (6/12/17 transcript Pg. 85-86). Both parties

13
agree that after the argument Mr. Dasler takes the
child outside for a walk.
The parties separated for the work day, Ms. Dasler
sent Mr. Dasler a suggestion for long-term housing,
which she later deleted from Mr. Dasler’s email account
using his computer that was still logged in when he
was arrested. Mr. Dasler responded by text that an
alternative would be for her to get a job that doesn’t
make her miserable so she doesn’t come home and
punish her family when she has a bad day at work
(6/12/18 transcript Pg. 86).
Ms. Dasler then left work early, called Mr. Dasler
demanding to know where he was, and he was afraid
to say (still avoiding conflict). When pressed, Mr.
Dasler told Ms. Dasler he was on his way to pick up
their child, then to the house before his final destination
of Groton State Park (6/12/18 transcript Pg. 87-88).
Ms. Dasler claims that Mr. Dasler lied about his
whereabouts and said he was AT Groton State Park so
she didn’t know he was going to the house (6/11/18
Pg.112).
Ms. Dasler plays up the allegation that this was
an attempted “abduction” on Mr. Dasler’s part (2/28/18
Motion to Correct and Re-Consider Pg. 24, and 12/12/17
Pg. 4, 11). While she claimed in later testimony that
she could hear the minor child in the background
(2/28/18 Motion to Correct and Re-Consider 43-44,
6/11/18 Pg. 112) her Relief From Abuse Complaint
affidavit on 5/15/17 said she “checked daycare” to
confirm whether or not the child was there AFTER the
call with Mr. Dasler, which is completely at odds
with the later claims that she could hear the child on
the call.

14
While the court ultimately accepted Ms. Dasler’s
version of events it is incontrovertible that Mr.
Dasler had repeatedly tried to escape conflict with
Ms. Dasler numerous times prior to her leaving work
early seeking him out. Even then, Ms. Dasler was
seeking Mr. Dasler and he was avoiding conflict. While
Ms. Dasler claims Mr. Dasler lied about his wherea­
bouts it is clear that she checked for him at 2 destina­
tions (daycare, then home) on his stated route. At no
point is Mr. Dasler pursuing Ms. Dasler, but she is
pursuing him.
Ms. Dasler admits that her kidnapping fear is
rooted in her childhood when cousins were kidnapped
by their father in the midst of a divorce (2/16/18
transcript Pg. 83). While this has nothing to do with
Mr. Dasler it does explain why she repeatedly makes
unfounded kidnapping accusations and claims Mr.
Dasler is a “flight risk” while seeking to prevent him
from being alone with the child after he said he was
leaving (12/12/17 motion pg.4, 8, 9, and 13, 12/6/18
Pg.3, 2/28/18 Motion to Reconsider Pg.24 and 2/16/18
transcript Pg. 64).
Ms. Dasler says that when she got to the marital
home she called Mr. Dasler’s friend to help “calm
Tim down”, however, when Mr. Dasler arrived at the
home during that call she ended the call and physically
confronted Mr. Dasler. She physically took the child,
body blocked Mr. Dasler, and repeatedly used physical
force against Mr. Dasler to prevent previously agreed
upon parent child contact. She states her reason for
using force was the fear of him putting the child to
bed late. This was at 5PM. Ms. Dasler claims Mr. Dasler
then pushed her, left, and both parties called the

15
police. No photos or other evidence of injuries have
ever been presented. Mr. Dasler has not testified
about this incident because there are charges pending,
however, he has plead not guilty and denied her
accusations. (6/11/18 Transcript Pg 112, 2/28/18 Motion
to Reconsider Pg. 45, 66-71, and 6/12/18 Transcript
Pg. 88-89)
Mr. Dasler was arrested, and Ms. Dasler filed a
Complaint for Relief from Abuse on Monday 5/15/17(the
next day the court was open). Consequently Mr. Dasler
was stripped of parental rights and visitation by tem­
porary ex-parte order signed by the judge 5/23/17
(App.91a) based solely on the 5/12/17 accusation. Mr.
Dasler could not testify on his behalf in this hearing.
A hearing date on a final Relief From Abuse order
was scheduled for 6/6/17, but delayed until 8/1/17. In
the mean time the only option for Mr. Dasler to have
any contact with the child is mediation with Ms. Dasler.
The 6/9/17 Stipulate Re: Parent Child Contact was
the result of mediation. Ms. Dasler only allowed Mr.
Dasler 4 hours per week with the promise of “normal­
izing contact”, however, Ms. Dasler would use this
weekly contact as a platform for 7 more motions
totaling 170 pages seeking to further restrict Mr.
Dasler’s contact. These accusations were either
unfounded, proven false, or they did not seek to prevail
by providing evidence or sufficient detail of any accu­
sation. For example; when accusing Mr. Dasler of
sending abusive, harassing, insulting, frightening,
humiliating, hateful, rude, and mean text and emails
they never provided any such evidence. While saying
visits weren’t ‘safe’ they failed to detail why exactly
they weren’t safe.

16
Ms. Dasler was able to dictate the terms of
visitation, and chose to have 4 exchanges per week
face to face. Mr. Dasler requested changes to this to
avoid this interaction as there was a Restraining
Order in effect. He offered to take the child directly
from the car seat, he could have picked up the child
from daycare had she allowed it or she could have
had the exchanges done by her parents who were in
attendance for every visit (2/28/18 Motion to ReConsider Pg. 30-32). Ms. Dasler even instructed daycare
to go in to “lockdown” if Mr. Dasler arrived when he
otherwise could have had visitation with her in her
daycare setting (2/28/18 Motion to Stay Visitation Pg.
18-19) Ms. Dasler had many options to avoid face-toface interactions but allow visitation, but she insisted
upon the arrangements that drove conflict.
In VT Family Court the accuser continues to
benefit from driving conflict. Having gotten any sort
of restriction on contact with the other parent, whether
or not there was due process finding that parent to
be unfit, the custodial parent continues to be counted
as “primary caregiver” the longer this arrangement
continues. The temporary orders are generally the
framework for final orders, so there is no incentive
for the custodial parent to be inclusive or encourage
visitation. In theory the statute considering “best
interest of the child” 15 V.S.A. § 665 penalizes a
parent for not being willing to “foster a relationship”
with the other parent, however, in practice the court’s
discretion is so broad that it need not be considered,
and often isn’t.
On 7/18/17, barely a month after Mr. Dasler’s
visitation began, Ms. Dasler cancelled the first visit

17
for the child being sick. Mr. Dasler asked for a makeup
visit and FaceTime on the day she was home sick. Ms.
Dasler said yes to FaceTime, but no to a makeup visit.
Mr. Dasler responded by text “Not your choice. There
is a court order.” Ms. Dasler then ignored Mr. Dasler’s
attempt to FaceTime with their child that day and
heard nothing until her attorney notified him that
they were filing a motion to suspend visitation and
he should cease all contact with Ms. Dasler (2/16/18
Defendant Exhibit C).
The 7/19/17 Motion to Suspend Visitation claimed
that Mr. Dasler returned the minor child with “several
bruises” and “did not explain [the injury]”. Ms. Dasler
did not allow any visitation between the 7/19/17 motion
and the 8/1/17 hearing in which she attempted to use
this accusation to get the child on a restraining order.
Under cross examination, and upon learning that Mr.
Dasler had recordings of visitation, Ms. Dasler admit­
ted that Mr. Dasler had explained that the child had
slipped and fallen in the bubble exhibit at the museum
because she wasn’t wearing shoes because the water
shoes provided weren’t adequate for 2 hours at the
museum. (2/28/18 Motion to Re-Consider pg. 52). At
this time the child was almost 2 years old, and at
this age slips and falls are common, not cause for
suspending visitation.
Ms. Dasler’s photos provided do not show bruises,
but she tries to pass off the shadow as a bruise. Ms.
Dasler claims it “developed to a black eye” (2/28/18
Motion to Re-Consider pg. 73). Her mother’s affidavit
(12/12/17 Motion pg. 7) claims it became a black eye
from her eyebrow across her cheek. Because Mr. Dasler
could only testify in the Restraining Order Hearing if

18
he waived his 5th amendment right to withhold
testimony prior to trial he was unable to provide any
evidence or defense.
Mr. Dasler was able to testify about this issue in
the 2/16/18 hearing to modify parental contact. He
provided photos (exhibit A) showing that 4 days after
the slip and fall (the next time he saw the child)
there was no sign of any sort of facial injury during
this period where Ms. Dasler and her mother claim it
“developed into a black eye”. Notably, their motion
came 2 weeks after the slip and fall, they provided no
photos that support it developing into anything, no
doctor’s report, and no report from daycare (a
mandatory reporter).
By any reasonable interpretation of the evidence
it is clear that Ms. Dasler and her mother were using
this as an opportunity to gain more leverage in a
divorce/custody proceeding. The statutory factor
requiring “reasonable fear for the child’s or custodial
parent’s safety” was not met when suspending visita­
tion. 15 V.S.A. § 668a The difference between Ms.
Dasler’s 7/19/17 motion and her testimony 2 weeks
later indicate she was aware at the time it was filed
that it was false. Mr. Dasler DID explain how, where,
and why the injury occurred, and it didn’t “develop”
into anything of substance. Certainly nothing to justify
suspending visitation.
Not only is it clear that she knew the accusation
was false, and it didn’t meet the statutory factor, but
if she could have stuck with “several bruises” and
“did not explain the injury” rather than being nudged
to the truth with the knowledge that recordings
existed, there would have been a much greater risk

19
that the child may have ended up on a restraining
order. This should have been taken very seriously by
the court, however, it was chalked up as one of many
good faith accusations and the violation of the custody
order was excused with no makeup time.
Ms. Dasler’s filing also came within 2 days of
Mr. Dasler’s request for makeup time. This pattern
would continue with many of the subsequent filings.
Every time Mr. Dasler requested makeup time after
more than one visit was cancelled, Ms. Dasler filed a
motion targeting his parental contact within 10 days
business days (6/12/18 pg. 211-213). The 7/19/17 Motion
was within 2 business days of his request. Cross
referencing Trial Exhibit 8 (App.98a-99a) with the
record we see the following pattern;
•

Cancelled visits due to illness 12/2/17 and
12/5/17. Emergency Motion filed on 12/6/17.

•

Visit cut short on 12/12/17 due to snow and
Motion to Reconsider filed 12/12/17

•

12/21/17 Mr. Dasler requested extended time
to make up for the short visit on 12/12/17,
and Ms. Dasler responded by moving the vis­
itation time to conflict with his stated holiday
travel plans (2/16/18 Exhibit J) and filed a
Renewed Motion to Reconsider on 1/2/18

•

Visits cancelled 1/13/18-1/16/18 due to illness
and Motion to Reconsider Addendum filed
. 1/30/18.

Each of these motions targeted Mr. Dasler’s
visitation in new ways. When the court ordered 50/50
visitation on 2/23/28 Ms. Dasler called the police to
obstruct the 1st overnight visit on 2/25/18 and filed 3

20
motions on 2/28/18 seeking to impede the order. Ms
Dasler still maintained sole legal/physical parental
rights, so Mr. Dasler still has no ability to effect
school or medical decisions while the court clearly
has found no reason to exclude him from 50/50
visitation.
On 11/11/17 Mr. Dasler called the police for help
to conduct his visitation safely while Ms. Dasler and
her father were parked so close to the Aquatic Center
that Mr. Dasler wasn’t sure he could conduct his visit
without being in violation of the order. The police did
not require her to leave, so Mr. Dasler had to go
inside to avoid a violation. Effectively she weaponized
the restraining order to force Mr. Dasler into an even
smaller area to conduct visitation, and the court
condoned it. After this visit Ms. Dasler accused Mr.
Dasler of stalking. The police investigated and did
not bring charges.
It should be noted that since Mr. Dasler started
recording after the 5/12/17 accusation each of the
subsequent accusations were disproven. Whether it
was an attempt to get the child on a restraining order
with the black eye accusation, the stalking accusation
of 11/11/17, or the 2/25/18 call to police, Ms. Dasler’s
false accusations failed to lead to further charges even
with her parents corroborating stories like the “black
eye” that never was.
Even so, rather than holding Ms. Dasler to account
for violating orders and. filing false and unfounded
accusations, instead the court ordered Mr. Dasler not
to record exchanges, and held the recordings against
Mr. Dasler as “exacerbating the parties’ challenges”
rather than recognizing that it was necessary as Ms.

21
Dasler repeatedly forced contact with Mr. Dasler,
then filed motions complaining about contact and
seeking to undermine his parental contact on those
grounds. Recording was his only defense under the
circumstances, and there is no statutory basis to
penalize him for recording in public insofar as he
isn’t surveilling or monitoring another party, neither
of which has ever been alleged.
In the final ruling the court found that while Ms.
Dasler’s 7 motions seeking to restrict Mr. Dasler’s
parental contact were not found to be accurate, they
were in good faith. Mr. Dasler, on the other hand,
would be penalized for simply being “slightly ginger”
in communication.
Considering the frequency of accusations, pending
criminal trial, and a restraining order it would appear
that Mr. Dasler was caught in a double bind with the
court. One word that could be construed as harassing
or threatening would land him in jail and suspend
parental contact. In spite of her accusations it actually
found him on the other extreme of “slightly ginger”
and still held that against him. There appears to be
no way in which Mr. Dasler would not have been
penalized for the mere existence of conflict. That is
exactly the problem with a statutory schema in VT
that has the state choose it’s ‘favorite’ parent rather
than finding a parent unfit before revoking parental
rights.
After the court denied her first couple motions
Ms. Dasler sought a therapist who was willing to
advocate for supervised contact for Mr. Dasler’s
visitation with their child without ever meeting the
parties (12/12/17 and 1/2/18 Motions). Mr. Dasler

22

was not involved in the medical decision, nor were
the recommendations in any way based upon the
therapist’s interactions with Mr. Dasler. The court
rejected this, however, it must be noted that the VT
court process allowing Ms. Dasler to wield this authority
to exclude Mr. Dasler was solely based upon meeting
probable cause to silence Mr. Dasler on the allegations
of abuse. The ability to seek out a therapist to rubber
stamp her request without collaboration or consent of
the other parent further compounds the issues in family
court. Of course this would be different if there were
any substantiated fear of harm to the child to any
reasonable standard and a parent being found unfit.
That simply isn’t the case here nor is it necessary
under VT statute.
In the divorce hearing Ms. Dasler’s counsel
(Attorney Loftus) grilled Mr. Dasler about the content
of an email urging Ms. Dasler to get mental health
treatment. Mr. Dasler subsequently testified about
Ms. Dasler’s erratic behavior including suicide attempts
going back to 2005 and Ms. Dasler running him down
with her car in 2013. He texted for help as she
threatened to drive into a tree with him on the hood.
This breakdown was the result of her fighting with
her parents about whether they would attend her
cousin’s 30th birthday party. His testimony was cut
short due to the length of the hearing, but it is clear
that there is a substantial mental health concern
(6/12/18 201-210 and 226-231).
In weighing the factors of the “best interest” of
the child the court relied on 3 factors, which it found
to “slightly favor” Ms. Dasler. To come to this conclu­
sion the court claimed that Ms. Dasler made “reason-

23

able makeup time” in f 101 citing exhibit 8 (App.98a)
which does not support the finding, and claiming it
was “voluntary’ for Ms. Dasler to “normalize contact”
as called for in the previous order (App.lOOa).
The court also claims Mr. Dasler violated the
order not to record (without any evidentiary basis),
and found that Ms. Dasler was primary caregiver
because she alienated Mr. Dasler for 9 months while
he awaited a hearing in which he could actually testify.
Having only met ‘probable cause’ for the initial accu­
sation she was able to compound that by stalling
“normalization of contact”, and violating court ordered
contact. While this should be factored against her in
the willingness to foster a relationship with the other
parent as defined in the “best interest of the child” 15
V.S.A. § 665(5), the court instead credited her as
primary caregiver, so the obstruction and violations
are a win win for the alienating parent.
In considering 15 V.S.A. § 665(9), evidence of
abuse, the court ignored her admissions of stalking
Mr: Dasler, her admission of attempts to physically
control him., and excused her incontrovertible violations
of the court order. These omissions are important as
they serve the purpose of relying on an unreasonable
misrepresentation of the facts to present a case that
“appears” to fit established case law rather than have
a decision split with some factors favoring each party.
Even if Ms. Dasler could prove that Mr. Dasler
pushed her, it is clear from her testimony that she
was seeking Mr. Dasler and when she found him she
engaged him physically seeking to control his parental
contact for reasons that have nothing to do with a
reasonable fear of harm to either party. If an altercation

24
resulted from this it certainly isn’t a one sided
exchange consistent with an accusation of assault
unless one is to somehow conclude that she already
has sole right to decide when the father can see his
child simply by virtue of being the mother, and that
physical force is justified for her to control Mr.
Dasler, but not for Mr. Dasler to escape that unwanted
contact.
If we accept her version of events on 5/12/17 it
still creates the problem that there is no reasonable
way to conclude that she didn’t violate the orders
repeatedly, and at very least the facts should reflect
a split decision where some factors favor each party.
The key factors in this case under 15 V.S.A. § 665
are:
(5) the ability and disposition of each parent to
foster a positive relationship and frequent
and continuing contact with the other parent,
including physical contact, except where
Contact will result in harm to the child or to
a parent;
(8) the ability and disposition of the parents to
communicate, cooperate with each other,
and make joint decisions concerning the
children where parental rights and responsi­
bilities are to be shared or divided; and
(9) evidence of abuse, as defined in section 1101
of this title, and the impact of the abuse on
the child and on the relationship between
the child and the abusing parent.
In factor 5 it’s clear that Ms. Dasler made every
attempt to obstruct Mr. Dasler’s visitation, even

25
seeking the therapist Ms. Washburn for the sole pur­
pose of advocating to eliminate Mr. Dasler’s
FaceTime with the child and move toward supervised
visitation without reasonable justification. She further
interfered with visitation even following Mr. Dasler
on the grounds during visitation.
In factor 8 it is clear that Mr. Dasler tried to
work with Ms. Dasler and offered solutions to avoid
difficult exchanges and a willingness to move visits
and reschedule. There is no substantiated example of
Mr. Dasler mistreating Ms. Dasler in the course of
visitation or creating an unsafe situation that is
cause for concern, however, it is clear with the 7/19/17
motion and “black eye” that Ms. Dasler willfully
exaggerated a normal toddler slip and fall to make it
appear nefarious and seek a restraining order on that
fraudulent basis. If anything the court found Mr.
Dasler to be “slightly ginger” in communication rather
than abusive or aggressive, and that should be to his
credit under the circumstances, not count against
him.
In factor 9 as applied to the ‘best interest of the
child’ Ms. Dasler’s physical force used against Mr.
Dasler should be considered as should the admissions
of stalking including lying in wait during visits,
following Mr. Dasler on the grounds during visits,
going through his car during visits, and seeking his
car out % mile away when he parked farther away to
avoid the violation of his privacy. The 5/23/17 Tempo­
rary Restraining Order (App.92a) claims Mr. Dasler
stalked Ms. Dasler based on the single incident where
Ms. Dasler took the child away from Mr. Dasler
when he arrived home, she took the child to the park,

26

and Mr. Dasler came to the park in the hopes of
taking the child camping. If that single act can be
called stalking, but the 70+ incidents (based upon the
70 visits and statements that they lay in wait at
every visit plus additional incidents of following
etc . . .) are not stalking, then the discretion given to
the court is clearly overly broad leading to arbitrary
application of the law.
A.

Property Distribution

At the time of separation on 5/12/17 Mr. Dasler
was working part time self-employed and seeking full
time or part time employment. After separation Mr.
Dasler purchased orchestral string instruments as
part of his expanding business. Flaunting the 15 V.S.A.
§ 751(b) statute determining equity, the court awarded
Ms. Dasler % of the value of these instruments while
excluding the debt Mr. Dasler owed on them. The court
used a value 54% higher than the replacement value
to account for a markup. The retail price of these
instruments is double the wholesale price, which reflects
the cost of doing business and some profit.
Ms. Dasler has no equity in the instruments based
upon the statutory factors. Even if she did have equity,
Mr. Dasler’s debt was equal to the wholesale price, so
there was no equity to distribute. To assume some
‘profit’ value in markup the court necessarily would
need to determine some approximation of cost of doing
business, which is well represented by Mr. Dasler’s
previous tax return indicating about 10% profit margin.
(6/12/18 transcript Pg.61, 77, 81-82)
What the court did instead is award Ms. Dasler
37% of retail, which is well above Mr. Dasler’s profit

27

margin. He won’t be able to deduct his payment to
her, so even if he sells the goods at 100% of retail he
holds 50% in debt, will pay 20% in taxes, has paid
her 37% up front (tax free) and will loose at least 7%
(assuming a cost of doing business at $zero) while she
profits 33% up front with no involvement or interest in
the transactions. It’s in violation of the statute and
wholly unreasonable.
Even Mr. Dasler’s privacy accounts on the com­
puter that Ms. Dasler used to illegally access his email
were not awarded to Mr. Dasler (6/12/18 Pg. 86)
Conversely, the court apphed the debt against
all of Ms. Dasler’s assets (car, house, and repairs
made to 2nd car before selling it). Whenever an account
was higher in Ms. Dasler’s name the court said “keep
what is in your name” When there was an account
higher in Mr. Dasler’s name (such as his inheritance)
the court credited Ms. Dasler for the difference.
While the court may consider something like an
inheritance the statutory factors still apply. The
court has discretion to make a reasoned judgement
and give one thing in lieu of another to balance things
out, however, it requires a reasoned judgement, not
just an arbitrary division. Even with things like Mr.
Dasler’s letters from his deceased mother the court
did not award them to him and the VT Supreme Court
simply stated that he hadn’t proven he didn’t receive
them, nor that it was inequitable to award them to
Ms. Dasler (App.lOa). Family letters from Mr. Dasler’s
mother who died in 2013 only have value to his family.
Ms. Dasler has no stake in them, no equity by any of
the factors laid out by the statute.

28

The court applied Ms. Dasler’s Net income against
Mr. Dasler’s Gross income (App.74a, App.47a If 180,
and App.49 U 190), and made a series of clear
mathematical errors that consistently fell in Ms.
Dasler’s favor. Including the value of the Rav (which
Ms. Dasler sold) and Mr. Dasler’s tools.
B.

VT Supreme Court Appeal

On appeal to the VT Supreme Court Mr. Dasler
requested the restraining order be included in the
record for him to reference in his brief, and requested
a copy of the audio exhibit from the hearing. During
the divorce hearing it was clear that the court was
referencing the restraining order file(RFA) while at
the bench in the hearing (6/11/18 Transcript Pg. 116),
but the VT Supreme Court excluded the restraining
order file from the record on appeal with exception of
the transcript that Ms. Dasler submitted with her
2/28/18 motion after the judge ruled in the hearing
on 2/16/18 that the restraining order was not going to
be re-heard in the temporary custody hearing, thus
they submitted the transcript in a motion anyways.
The VT Supreme Court did not recognize the
factual errors that underpin the decision because it
applied the Cabot standard.
In considering the court’s factual findings, we
“view[ ] the evidence in the light most favorable to
the prevailing party and excludte] the effect of
modifying evidence.” Cabot v. Cabot, 166 Vt. 485, 497
(1997) (quotation omitted).
In excluding all modifying evidence the court
simply wouldn’t know whether or not the findings are
reasonable or even plausible in light of the evidence

29
because the evidence isn’t reviewed so long as there
is some passing connection between fact finding and
a piece of evidence.
The VT Supreme Court did also cite two other
opinions that are mutually exclusive with Cabot (App.
2a-3a) that would overturn fact finding if not “rea­
sonable in light of the evidence.” The citation of such
diverse case law in the same opinion indicates the
arbitrary and capricious nature with which the court
apphes the law, and denies 14th amendment right to
equal opportunity to appeal by arbitrarily and
capriciously applying standards such that the lower
court’s findings may or may not need to be reasonable
depending on the whim of the appellate court.
Having ignored the factual issues by applying
Cabot the court constructed a straw man argument
ignoring the clear errors and instead attacking Mr.
Dasler’s credibility argument while ignoring the pri­
mary thrust of his argument. Mr. Dasler's re-argument,
which re-iterated that the primary argument was clear
error based on misreading of written evidence and
past orders was dismissed without further comment
from the court.

REASONS FOR GRANTING THE WRIT
I.

State Statutes Regarding Child Custody Fail
to Provide 14th Amendment Protection

The SCOTUS stated, as in Troxel v. Granville,
530 U.S. 57 (2000), that parental rights are 14th
amendment protected. Practically, however, that pro-

30
tection is not applied while federal courts refuse to
hear the cases. The result is overly broad statutes
with state courts ever broadening the discretion of
the court to the point where the court’s predisposition
is what decides cases.
If parental rights are constitutionally protected,
then there should be no avenue to revoke parental
rights other than cases where a parent is shown to be
unfit by a clear and credible evidence. By many state
statutes, however, the court need only be 51% certain
that one parent is ‘better’ than the other, and the
‘losing’ parent will no longer have any say in school
or medical decisions. Theoretically the ‘winning’
parent has to involve the other, but functionally one
parent has veto power and that imbalance is what
many parents use to further alienate the other parent
and further erode their rights just as is seen in this
case with Ms. Dasler soliciting and receiving a recom­
mendation to curtail Mr. Dasler’s parental contact
without ever meeting any of the parties. All without
ever establishing either parent to be unfit.
In this current climate of the family court freefor-all there are incentives to make allegations in the
heat of the moment to secure custody because it’s an
all or nothing game in many cases. The first one to
make the allegation usually wins.
Knutsen v. Cegalis, 2016 VT 2 No. 2015-133 is
an example of how the lack of due process damages
children. The father was initially awarded custody,
but not because mother was unfit.
“The court awarded father primary custody
in 2009, concluding at that time that he had
a superior ability to foster the child’s rela-

31
tionship with the other parent, and a
superior disposition to meet the child’s devel­
opmental needs. We affirmed the court’s
decision on appeal.” Knutsen v. Cegalis, 2011
VT 128, 191 Vt. 546, 35 A.3d 1059 (2011)
The father then underwent a campaign to convince
the child the mother was abusive, and used his control
over medical decisions to drive the issue. After years
in court it was determined that there was no factual
basis for the allegations, and the child had, by that
point, completely rejected the mother. Nevertheless
the VT court, having determined that the father was
emotionally abusing the child, concluded that it was
in the “best interest” of the child to stay with the
abuser rather than the mother who had never been
proven to be unfit and was cleared of the allegations
against her. The VT Supreme Court affirms. If there
were constitutional protections in place this mother
would not have her rights stripped for years without
ever being proven to be an unfit parent, and ultimately
be denied any recourse under the same overly broad
interpretation of the law that denies Constitutional
protection of parental rights in so called “domestic
relations” cases.
II.

The Conflict Between 5th Amendment Rights
and 14th Amendment Rights Appear Not to
Have Been Resolved Within the Federal Court

While many divorce cases may end because of
abuse, there are many where an accusation of abuse
is simply the convenient way to ensure custody. To
differentiate between these two scenarios we must
offer protection for the accused so that the mere accu­
sation is not the basis to lose parental rights whether

32

or not any accusation has been proven to a reason­
able standard.
Vermont is typical of many states in that a parent
may loose parental rights on a temporary basis because
of an accusation prior to a hearing. That temporary
order then becomes the framework for a permanent
order and in the process the accused simply looses
parental rights and possibly visitation simply because
it’s now considered to be in the child’s “best interest”
not to disrupt the existing family dynamic.
Simply by claiming the 5th amendment right to
remain silent and avoid giving the prosecutor a preview
of the defense the accused will effectively be required
to waive the 14th amendment right to due process
because the fundamental issue can’t be adjudicated
in family court fairly prior to the criminal hearing
when only one party is at liberty to testify. Of course
this happens all the time as it has happened in this
case.
HI. The Judicial Fact Discretion Study Illustrates
‘Actual Bias’, How, and Why It Manifests in

Cases Like This
The Judicial Fact Discretion study by Genaioli
and Shleifer [Journal of Legal Studies, vol. 37 (January
2008)] illustrates very well how the deadly combination
of broad discretion of interpreting the law and a case
heavy in fact results in systematic discrimination
based upon the predisposition of the court. The study
finds that when the court is uncertain about the law
its predisposition decides. One thing the court IS
sure of, however, is that it doesn’t like decisions to be
overturned on appeal. Consequently the courts usually

33

protect their decisions by manipulating the fact finding
to ‘appear’ to match existing case law. This works
because the fact finding need not be reasonable in
light of the evidence under most state appeals of
family cases.
Having an empirical study that illustrates what
it looks like to ‘manifest actual bias’ in a decision we
can define the factors that illustrate this bias. Based
upon this study I would propose that bias can be
illustrated with these 3 factors.
1.

Multiple clear errors exist (clearly unrea­
sonable in light of the evidence)

2.

Clear errors underpin the case predominantly
favoring one party

3.

Errors change the landscape of the case.

If the vulnerable cases (heavy in fact with broad
discretion in law) are more likely to result in this sort
of erroneous fact finding to make a case “appear” to
match case law, then it seems as though a definition
of bias that accounts for that could inoculate vulner­
able decisions so long as fact finding is reviewed to a
reasonable standard. The study makes clear that
courts moderate their behavior in the face of the
mere threat of appeal. Unfortunately that ‘moderation’
comes often in the form of courts ‘tidying’ the deci­
sion to appear to match case law rather than risk a
decision being overturned.
While an adverse decision is obviously not bias,
the proposed definition (or something like it) helps
flesh this out. Minor errors that don’t underpin the
decision wouldn’t indicate bias, nor would a single
error that is significant, but harmless ultimately in

34
the face of other factors that decide the case. Only
when there is the appearance that a case has been
manipulated systematically is there an indication of
bias. In such cases the court’s findings should be
thrown out as one can’t decipher where the court’s
findings are and are not reliable.
This case is one that illustrates these factors
well. Without the court’s errors in excusing Ms. Dasler’s
numerous violations of the court order we would be
weighing her accusation of abuse vs. her refusal of
contact in violation of the order, and refusal to coop­
erate as a co-parent. If this were justified by real
fears of abuse it could be excused, but no such legitimate
fears were established in spite of her herculean effort
to stick Mr. Dasler with any accusation she could in
170 pages of filings and 3 court hearings. Without
the court rearranging some facts the case would be
ripe for appeal no matter which party was awarded
parental rights. Even if the court did consider Ms.
Dasler’s stalking behavior and awarded Mr. Dasler
sole parental rights while he is awaiting trial the
case would be ripe for appeal. So the court did exactly
as predicted in the Judicial Fact Discretion study. It
manipulated some facts until it could present a tidy
decision that is safe from appeal because the fact
finding need not be reasonable.
If the states’ interpretation of due process is to
leave Constitutional protection to the ‘honor system’
with the lower courts there simply is no protection.
No recourse in federal court. We’re left trying to
navigate cases with a map that doesn’t correspond to
the streets with all roads drawn to lead to the same
destination. In such a system an appeal is meaningless.

35

In states like VT where child custody overwhelm­
ingly is awarded to women and the court’s predisposi­
tion is the deciding factor because of the previously
stated problems there simply is no reason for women
to offer shared parenting when they are nearly
certain to be awarded it. In other states men are
preferred for custody, and again it drives unneces­
sary conflict, harms children, and is not in the best
interest of children or the state.

CONCLUSION
For the foregoing reasons the petitioner requests
the Petition for Writ of Certiorari be granted.
Respectfully submitted,
Timothy Dasler
Petitioner Pro Se
488 NH Route 10 Apt D
ORFORD, NH 03777
(802) 369-9993
October 7,2019

